Supreme Court, U.3.
FILED

JUL 2 0 2020
OFFICE OF THE Cl FPk~

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA

KEITH ALLEN WILSON - PETITIONER
VS.
STATE OF FLORIDA - RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
SECOND DISTRICT COURT OF APPEALS, FLORIDA

PETITION FOR WRIT OF CERTIORARI

KEITH WILSON
35 APALACHEE DRIVE
SNEADS, FLORIDA 32460

RECEIVED
AUG ' 5 ®°

COVER PAGE

I

QUESTIONS) PRESENTED
Can the Charlotte County Court of Florida deny a
Motion for Judgment of Acquittal, when the State did “not”
prove Corpus Delicit of 2"d Degree Murder with Evidence
that’s insufficient and circumstantial in a case that was
delayed for 15 years and 6 months when fact witnesses have
died and witnesses could not be located in order to prepare a
defense for trial?
Can the 2nd DCA of Florida uphold that decision of the
trial Court denying the JOA motions?

RELATED CASES
1. Wilson v. State, No. 13-CF-1296F, Charlotte County,
Florida. Judgment entered Dec. 13, 2017.
2. Wilson v. State, No. 2D 18-0500, Second District Court of
Appeal. Judgment entered March 4, 2020. (Appx. A, Pg. 1).

LIST OF PARTIES
All parties appear in the Caption of the Case on the Cover
Page.

IV

TABLE OF CONTENTS
INDEX:

PAGE NO.:

TABLE OF CONTENTS

1

INDEX TO APPENDICES

11

PRELIMINARY STATEMENTS

in

QUESTION(S) PRESENTED

IV

RELATED CASES

IV

LIST OF PARTIES

IV

TABLE OF AUTHORITIES CITED

y-vi

CERTIFICATE OF INTERESTED PERSONS

.virvm

OPINIONS BELOW

1

JURISDICTION

1-2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

2

STATEMENT OF CASE

.2-9

REASONS FOR GRANTING THE WRIT

.9-17

CONCLUSION

17

CERTIFICATE OF COMPLIANCE

18

PROOF OF SERVICE

19
i

INDEX TO APPENDICES
PAGE NO.
APPX. A: 2nd DCA of Florida March 4, 2020 Opinion
2nd DCA of Florida Order Striking Motion
for Rehearing on March 24, 2020

1

2

APPX. B: Petitioner’s relevant portions of his Record
on Appeal
APPX. C: Petitioner’s relevant portions of his
Trial Transcripts
NOTE-' Petitioner is relying on his original Trial
Transcripts and Record on Appeal Page Numbers
APPX. D: Marlon Clapham’s RapSheet Case No(s).
722122 and/or 361991CF00228900ACH

ii

1-3

TABLE OF AUTHORITIES CITED
CASES

PAGE NO.

Ballard v. State,
923 So.2d 475 (Fla. 2006)

11

Bradley v. State,
787 So.2d 732 (Fla. 2001).

10

Burkell v. State,
992 So.2d 848 (Fla. 2008).

11

Coleman v. Thompson,
501 US 772 (1991)

2

Crain v. State,
894 So.2d 59 (Fla. 2004)

10

In Re Winship,
397 U.S. 358 (1970).

16

Jackson v. Vir.,
443 U.S. 307 (1979)

10

Lindsey v. State,
14 So.3d 211 (Fla. 2009);

11

Meyers v. State,
704 So.2d 1368 (Fla. 1997)

10

Ramsammy v. State,
43 So.3d 100 (Fla. 4th DCA 2010)

Passim

Randolph v. State,
418 So.2d 1164 (1982)

13

Scott v. State,
581 So.2d 887 (1991)

16

Simmons v. State,
934 So.2d 1100 (Fla. 2006)

10

v

Sullivan v. La.,
508 U.S. 275 (1933).

16

Townley v. U.S.,
665 F.2d 579 (1982)

14

Walker v. State,
495 So.2d 1240 (Fla. 5th DCA 1986)

11

Williams v. State,
143 So.2d 484 (Fla. 1962)

Passim

U.S. v. Agurs,
427 U.S. 97 (1976)

Passim

U.S. v. Lovasco,
431 US 783 (1977)

14

STATUTE AND RULES
Tit. 18 USCS 3006 A(d)(7).

17

Tit. 18 USCS 3485

2

Tit. 28 USCS 1257

2

Fed. Rules of Evid. 201, 404

14, 16

Sup. Ct. Rules 9, 10, 15, 33...

15, 17-18

Fla. Statutes 90.404

16

OTHER
Magna Carta (1215 A.D.)

14

U.S. Const. Amendment V, XIV

Passim

Fla. Jury Insts. 7.4

17

Marlon Clapham’s Lee County, Fla. Case No(s).
722122 and/or 361991CF00228900ACH

14

vi

IN THE SUPREME COURT OF THE UNITED STATES
OF AMERICA
Keith Allen Wilson
PETITIONER
vs.
State of Florida
RESPONDENT(S)

U.S. Sup. Ct.
Case No.:

CERTIFICATE OF INTERESTED PERSONS A ism
CORPORATED DISCLOSURE STATEMENT
Comes now the Petitioner, in the listed above pursuant
to
U-S. Sup. Ct. Rules. This Statement is filed in Good
Faith and lists below the Persons of Interest in this case:
1. Charlotte County Sheriffs Department of Fla.
2. Clap ham, Jesse (State Witness)
3. Feinberg, Daniel P. (Asst. State Attorney, Charlotte
County, Fla.)
4. Jones, Melissa Ann Harding (State Witness)
5. Moody, Ashley (Fla. Attorney General)
6. Richards, George (Charlotte County, Fla. Trial Judge)
7. Rodriguez, Pilar (Victim/missing person)
8. Rodriguez, Marco (State Witness/Victim’s Dad)
9. Rubin-Rebholz, Cynthia (Asst. State Attorney, Charlotte
County)
10. Russell, Stephen B. (Charlotte County State Attorney)
11. At this time, Petitioner, does “NOT”
____ obtain any
information of subsidiaries, conglomerates, affiliates, parent
corporations, or any publicly held corporation that owns 10%
Vll

or more of the party’s stock, or other identifiable legal
entities related to a party that is interested in the outcome of
this case. Petitioner, does “NOT” obtain any information
containing stock (“ticker”) symbols.
PROOF OF SERVICE OF DISCLOSURE STATEMENT
I, Keith Allen Wilson, do swear or declare that on
y-ao
, 2020, as required by Sun. Ct. R, 29 I
have served the enclose Corporate Disclosure Statement on
each party to this Certiorari Proceeding, by depositing an
envelope containing the above documents in the U.S. mail
properly addressed to each of them with Is* class postage
prepaid mailed to:
Solicitor General of the United States, Room 5614,
Department Justice, 950 Pennsylvania Ave. N.W.
Washington, D.C. 20530, and Supreme Court of United
States, One First Street N.E. Washington D.C. 20543.
I, Keith Allen Wilson, declare under Penalty of Perjury
that the foregoing is true and correct. Executed on__Q. 0
day of
v
, 2020.

Y

Keith Allen Wilson - DC #Y63626
Apalachee Correctional Institution
35 Apalachee Drive
Sneads, Florida 32460-4166

/S/
Keith Allen Wilson, Pro-Se’ Litigator

vm

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRTT OF CERTTORART
Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below.
OPINIONS BELOW
[X] For cases from state courts:
The opinion of the highest state court to review the
merits appears at Appendix A to the petition and is
[X] reported at N/A; or,
[ ] has been designated for publication but is not yet
reported; or
[ ] is unpublished
The opinion of the Florida Second District Appeal court
appears at Appendix A to the petition and is
[X] reported at unknown; or,
[ ] has been designated for publication but is not yet
reported; or
[ ] is unpublished
JURISDICTION
[X] For cases from state courts:
The date on which the highest state court decided my

case was Fla. 2** DCA. A copy of that decision appears

at Appendix A, pg. 1

[X] A timely petition for rehearing was thereafter denied
on the following date: March 24, 2020, and a copy of
1

the order denying rehearing appears at Appendix A,
Pg. 2.
On May 21, 2020, Petitioner filed a Motion for
Extension of Time to file Certiorari, in which was
denied on June 4, 2020, but the Clerk mailed
Petitioner a U.S. Sup. Ct. Order (Order List: 589
U.S.) that gave Petitioner 150 days to file this
Certiorari, due to Covid-19 Pandemic.
The jurisdiction of this Court is invoked under 28 U S C §
1257(a).
See Coleman v. Thompson, 501 US 772, 730 (1991) holding
“when this Court reviews a State Court decision on direct
review pursuant to Tit. 28 USC 1257, it is reviewing the
judgment if resolution of a Federal question cannot affect the
“Judgment”, there is nothing for the Court to do.”

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
The Constitutional provisions that are involved in this
Writ of Petitioner’s Birthright to American Due Process
embedded in U.S. Constitution.
The Statutory Provisions that are involved are Tit. 18
USCS 3485 Evidence and Witnesses.

STATEMENT OF THE CASE
Petitioner was charged with second degree murder on
August 16, 2013, for the killing of Pilar Rodriguez in early
1999. (Appx. B, Pg. 37-38). The jury found Appellant guilty
as charged, and was sentenced to life imprisonment on
December 13, 2017. Petitioner proceeded to trial between
Oct. 9, 2017 and Oct. 18, 2017.
Melissa Cooper Harding Jones and Jesse Clapham
were the State’s star witnesses. Melissa testified-'
“During the five to six months Melissa was
living with Petitioner in Kentucky, her
2

mother and sister met Marco Rodriguez and
his three year-old daughter, Pilar, at a
laundromat in Hollywood. Pilar hit it off
with Debra Cooper immediately. Upon
leaving the laundromat, Marco showed up at
Debra’s apartment asking for a place to sleep
because he and his daughter were homeless.
Marco and Pilar lived with Debra and
Amanda for approximately four months with
Marco sleeping in the living room and Pilar
with either him, Debra or Amanda.” (Appx.
C, Pg. 445, 495-496, 1129-1130).
While Melissa was back in Florida, she babysat Pilar
because Marco could not afford daycare. (Appx. C, Pg. 450,
496, 641). Melissa maintained contact with Petitioner by
calling his cellphone from a payphone near her apartment, as
she did not have a cellphone or landline. (Appx. C, Pg. 643,
810, 1459). She also traveled up to Punta Gorda, at her
expense, a few times to stay with Petitioner in a hotel (Appx
C, Pg. 647-648, 1463).
During one of her trips to Punta Gorda, Melissa
brought Pilar. Debra had no concerns when Melissa took
Pilar to visit Petitioner overnight. After making a few
uneventful trips to visit Petitioner, including those with Pilar
in tow, Melissa planned to visit Petitioner at the end of
January 1999, for a few weeks. Marco was doing community
service at night and could not care for Pilar, so Melissa
planned to take Pilar with her. Melissa testified that M arco
got frustrated and “hateful” towards Pilar and hit her in the
head with a tape case. He said he wanted to put her in the
garbage, and he asked Melissa if she would raise Pilar until
he was back on his feet. Melissa and Pilar left on January 31,
1999 to visit Petitioner. (Appx. C, Pg. 453-454, 468*469, 471
651).
Petitioner stated he was not expecting Melissa until
Valentine’s Day and that she showed up two weeks early
with Pilar. Melissa did not call Petitioner until she was in Ft.
Myers to let him know she was coming, and she did not tell
him Pilar was with her. Upon their arrival, Petitioner found
an apartment to lease in Charlotte County for two weeks,
and he bought groceries for them. (Appx. C, Pg. 1465-1470).
3

Pilar slept on the couch with the comforter from the
bed for warmth, while Petitioner and Melissa stayed in the
bedroom. Petitioner never made Pilar sleep in the closet. The
next day, February 1st, Petitioner went to work at 3-'30 a.m.
and picked up his semi-trailer at his grandmother’s house.
He returned to the apartment at 1CK00 p.m (Addx C Pe
1470-1477).
’
He went to work on February 2nd at 3^00 a.m. and
both Melissa and Pilar were inside the apartment when he
left. Petitioner returned at lO-’OO p.m. and found Melissa
sitting on the bed looking dazed and confused, with an
armband from the hospital on her wrist. (Appx. C, Pg. 14701473). Petitioner inquired about Pilar’s whereabouts
Melissa told him that Pilar s father, Marco, had picked her
up.
He also noticed two soda bottles, that had cigarette
butts inside, and empty KFC boxes. Petitioner had not left
any KFC for them and he knew that Melissa, like him, did
not smoke. He also noticed Pilar’s suitcase and dolls were not
around but assumed Melissa put them away. Petitioner
never saw Pilar again after he left for work early in the
morning on February 2nd. (Appx. C, Pg. 1474-1477).
Melissa stayed with Petitioner for the two weeks as
planned, and on February 14*, they talked about having
Melissa s sister from Wisconsin come down and stay with
her, as Petitioner was worried about Melissa staying by
herself due to her diabetes. He offered to buy her sister a
plane ticket to Florida but her sister was unable to fly down
from Wisconsin. Petitioner bought Melissa a plane ticket to
visit her. (Appx. C, Pg. 1475-1477).
Shortly after arriving in Wisconsin, on February 23,
1999, law enforcement arrived at the home of Melissa’s sister
and her husband, because Pilar’s father had reported Pilar
missing to Hollywood Police. (Appx. C, Pg. 517-518, 588-590).
Melissa admitted at trial that she initially told the
detectives in Wisconsin that Pilar’s father picked her up. She
continued telling this story to the police in Wisconsin for two
to three hours. At trial, she stated that she lied to the officers
4

and had planned to tell them that she went to the hospital
while Petitioner was at work, and that Marco had picked up
Pillar. (Appx. C, Pg. 680, 719-720).
She testified that she went to the convenience store
nearby on February 2nd, because she was not feeling well and
left Pilar inside the apartment alone for hours while
Petitioner was at work. Melissa collapsed at the store, taken
to the hospital and released a few hours later. (Appx. C, Pg.
680-681, 686).
A few hours after Melissa told the police that Marco
had picked up Pilar, she changed her story and told them
that after she returned from the hospital, Petitioner had
killed Pilar by punching her head. She said she made it
sound accidental which she said was also a lie. (Addx C Pe
721-722).
’ ’
She told the police she left Pilar alone in the shower
heard a thud and found Pilar on the floor. She admitted that
this was a lie too. (Appx. C, Pg. 836). Melissa admitted that
she wrote letters to Petitioner after Pilar’s death expressing
her love, and took a bus from Hollywood to Charlotte to visit
but he sent her back the next day. (Appx. C, Pg. 722-728).
After law enforcement was advised on February 23rd,
that Pilar was missing, they searched the apartment where
Pilar had been living with Petitioner and Melissa, which was
occupied by a new tenant. (Appx. C, Pg. 921-924).
The officers located dark hair from the bathroom floor
that looked cut and they found two areas of the carpet with
blood. Petitioner’s car was processed for evidence and several
areas in Punta Gorda were searched for Pilar. A lake was
drained and K-9 units were deployed to no avail. (Appx. C,
Pg. 949-950, 965-970).
Searches for Pilar went on for years and
___
approximately ten years later, in 2009, Detective Gandy,
with the Charlotte Sheriffs Office, was working on cold cases
including Pilar’s. Det. Gandy conducted a search of the
property of Petitioner’s grandmother, where Petitioner used
to live. While no physical evidence was uncovered, a new
witness, Jesse Clapham who saw the search on television,
5

contacted
the Sheriffs Office and gave a statement. Jesse
, , .
had just been released from prison on January 2009 and was
related to Petitioner by marriage. (Appx. C, Pg. 561-565,
1248;.
Jesse testified that late at night in 1999 or 2000 he
saw Petitioner, his uncle Bert Clapham, and his father
Marlin Clapham, standing around the trunk of a car and he
saw a littie purple foot sticking out of a pink blanket. (Appx.
C, Pg. 1262-1264).
Melissa testified that Pilar’s body was completely
incased inside a very large plastic garbage bag, with no body
parts protruding, and that Pilar did not have any blankets
(Appx. C, Pg. 805-806).
Jesse claimed he asked Petitioner if the girl in the
trunk was the girl on the news, and Petitioner responded
Yeah, she suffocated somehow.” Jesse claimed Petitioner
did not remember any discussions with Petitioner regarding
what happened to Pilar. He also said during deposition that
his statement regarding suffocation was made by someone
else in the family. Jesse admitted he had five felony
convictions, four involving dishonesty. He claimed he could
not come forward sooner and report what he saw until his
uncle Bert and his father passed away. (Appx. C, Pe. 12581259, 1290-1297). Jesse acknowledged that both his father
and uncle passed away before he was incarcerated, and he
knew the little girl was missing before he went to prison. He
claimed his dad did not die until just before Jesse went to
prison in May 2008, and Bert died six months prior. (Appx.
§[• A2 / # 1278/.

Bert’s wife, Rosemary Clapham, testified that Bert
died much earlier, in 2001, and Marlin died in 2004. (Appx.
C, Pg. 1323). Petitioner stated he never saw Bert, Marling, or
even Jesse in February 1999, and that the incident Jesse
described involving Bert looking in his trunk never
happened. (Appx. C, Pg. 1486-1487).
Based on Jesse Clapham’s statement to police, Melissa
Cooper was reinterviewed in Washington State where she
6

was living. She changed her story again, offering details that
she never mentioned over the last several years. She told the
detective Petitioner had cut Pilar’s hair to look like a boy
(Appx. C, Pg. 735-737). Melissa was arrested and her
statement led to Petitioner’s arrest. Melissa was charged
with aggravated manslaughter of a child, which changed to
accessory after the fact, and her testimony against Petitioner
was part of her plea deal. (Appx. C, Pg. 561-566, 741-744).
She eventually went back to Hollywood to live with her
mother and sister and became Pilar’s caretaker while Marco
and Pilar lived with them. She kept in phone contact with
Petitioner by calling him and met him in Punta Gorda a few
times with Pilar when Marco had no one to babysit. (Appx. C,
Pg. 641, 647). She said Petitioner initially wanted her to live
with him at his grandmother’s house in Punta Gorda and
that he knew she would be bringing Pilar for an indefinite
period of time. (Appx. C, Pg. 652).
According to Melissa, Petitioner made Pilar sleep on
the couch, the floor, or the closet inside the apartment he
leased for them during their trip to Punta Gorda in February
1999. She claimed Petitioner was physically abusive towards
her and slapped, hit and choked her immediately after
arriving in Charlotte County, and he hit Pilar hard in the
face and arm with an open hand. (Appx. C, Pg. 672-673).
Melissa said she did not go outside the apartment because he
did not want them to, but admitted Petitioner would not have
known if they went outside while he was working. She did
walk to Circle K to make phone calls. (Appx. C, Pg. 674-676).
Melissa further claimed Petitioner would make Pilar
stand for hours without sitting down and he severely
battered Pilar between February 2nd to 14th, 1999. She stated
that he punched Pilar in the head with a closed fist and she
fell back hitting the doorjam with her head. Pilar was
screaming, crying and holding her head, and Melissa was
restrained from going to her by Petitioner who forced her to
have sex. Afterwards, Pilar was no longer interested in
watching television and she slept for a few davs (Addx C
Pg. 688-692).
Melissa testified that she felt a mushy spot on Pilar’s
head and told Petitioner Pilar needed medical attention.
While Petitioner was at work, she went to talk to Pilar, who
7

was sleeping, but she was unresponsive. When Petitioner
came home that night, she told him that Pilar needed to go to
the hospital, but Petitioner said he could not take her
because they would see the bruises. (Appx. C, Pg. 694-696)
. Pilar was never responsive again and died, in spite of
Petitioner’s attempt of CPR, and to revive her in the shower.
(Appx. C, Pg. 696). Melissa was asked why she did not seek
help for Pilar at the Circle K she had previously gone to
when she was not feeling well, and she responded, “I don’t
know. I-I don’t know,” (Appx. C, Pg. 697).
The details Melissa added several years later to her
original story in 1999, included her claim that Petitioner put
ilar s body in a black garbage bag and said he was going to
689)^ ^Gr aga^nSt ^lissa’s protestations. (Appx. C, Pg. 688-

Melissa testified that after Petitioner returned to the
apartment, he said he hoped he buried her deep enough and
she did not know where Pilar’s body was buried (Addx C
Pg. 700).
’
Contrary to the allegations Melissa came up with ten
years after the incident, Petitioner testified he never hit,
slapped, pushed, or bathed Pilar, or cut her hair. Nor did he
put Pilar in a trash bag or blanket, and he never put her in
the trunk of his vehicle. (Appx. C, Pg. 1479). In fact, the only
time Pilar was in his car was when he picked her and
Melissa up at the bus station. Petitioner stated he did not
dispose of Pilar’s body in a septic tank or bury her, he did not
feed her to alligators or put a leash or collar on her neck.
(Appx. C, Pg. 1480-1481). Petitioner did not know Pilar was
missing until law enforcement contacted him, and he
cooperated with the Charlotte Police Department by
voluntarily giving them a statement and taking them to the
apartment. (Appx. C, Pg. 541-543; 552; 1481).
Jailhouse snitch, Christopher Benning, who has 15
felony convictions, testified that he was incarcerated at the
same time as Petitioner in August 2013 to 2014. Benning
wrote a letter to the State Attorney’s Office and gave a
statement based on Petitioner’s comments that he said he
overheard. (Appx. C, Pg. 871; 877-888). Benning alleged that
8

Petitioner said the child was crying and would not stop, so he
slapped the child and its head hit the doorframe and the
child fell. He claimed he heard Petitioner say he tied the
child to the bed and went to work. When he got home the
child was dead, so he got rid of the body. (Appx. C, Pg. 88384).
Mr. Benning also claimed he heard Petitioner say to
inmate Barr that the female he was with saw the child’s foot
in the trunk. Benning said he heard these comments through
the air vents. (Appx. C, Pg. 880; 886). Benning acknowledged
he wanted out of prison and his testimony was a condition of
his sentencing, and he received
benefit for testifying.
(Appx. C, Pg. 873-874; 889).
Randall Lindsey was in jail with Petitioner between
July 9th and 13th, 2014, and he received a lesser sentence for
assisting the State in this case. (Appx. C, Pg. 1584-85). Mr.
Lindsey was facing 90 years but only received 4 for his
assistance to the State and his testimony at Petitioner’s trial
(Appx. C, Pg. 1589).
Mr. Lindsey, who was 13 felony convictions and
violated his probation, claimed he heard Petitioner say to
inmate Barr that someone cannot be convicted of murder
without a body. (Appx. C, Pg. 1585-88).
Contrary to the testimony of Mr. Benning, Petitioner
stated that because he was 100 pounds heavier when he was
in prison with Mr. Benning, he was physically unable to step
on top of the sink in order to communicate with another
inmate. Therefore, talking through an air vent to inmate
Barr or any other inmate was physically impossible for him
(Appx. C, Pg. 1573).

REASONS FOR GRANTING THE PETITION
Argument #1
THE CHARLOTTE COUNTY, FLORIDA TRIAL COURT
ERRED IN DENYING PETITIONERS MOTION FOR
JUDGMENT OF ACQUITTAL AS THE EVIDENCE WAS
INSUFFICIENT TO PROVE THE ELEMENTS OF
9

SECOND-DEGREE MURDER, AND THE 2nd DCA OF
FLORIDA ERRED BY UPHOLDING THAT DECISION IN
VIOLATION OF JACKSON V. VIRGINIA, 443 US 307
(1979) AND U.S. CONST. AMEND. V DUE PROCESS
Defense counsel moved for a judgment of acquittal at
the conclusion of the State’s case on the basis that the
evidence presented was insufficient to prove second degree
murder or manslaughter, because the State failed to prove
the victim was deceased, in which the Court denied the
motion. (Appx. C, Pg. 1424). During trial, counsel objected
that the State could “NOT’ prove Corpus Delicti, in which
the Court overruled the objection. (Appx. C, Pg. 536). “In
determining the sufficiency of the evidence, the question is
whether, after viewing the evidence in the light most
favorable to the State, a rational trier of fact could have
found the existence of the elements of the crime beyond a
reasonable doubt.” Simmons v. State, 934 So.2d 1100, 1111
(Fla. 2006), quoting Bradley v. State, 787 So.2d 732, 738 (Fla
2001).
“In order to prove corpus delicti in a homicide case the
State must establish: (l) the fact of death; (2) the criminal
agency of another person as the cause thereof and (3) the
identity of the deceased person.” Meyers v. State, 704 So.2d
1368, 1369 (Fla. 1997). The State can prove the fact the
victim is dead by competent, substantial evidence despite the
inability to find the victim’s body. Crain v. State, 894 So 2d
59, 72 (Fla. 2004).
“The corpus delicti of murder can be proven
circumstantially even without any evidence of the discovery
of the victim’s body.” Id. Ramsammy v. State, 43 So.3d 100,
105 (Fla. 4* DCA 2010). Here, as in Ramsammy, the
evidence was insufficient to support Petitioner’s conviction
for second degree murder where the victim’s body was never
recovered, no physical evidence of the manner of death was
presented, no physical evidence like blood, DNA, or any other
type of forensics was found indicating a death occurred , no
confession to killing or even hitting the victim was ever
made, and the only alleged eyewitness, co-defendant Melissa
Cooper, who claimed Petitioner caused the child’s death, had
a motive to kill the victim as she had previously threatened
10

to kidnap the victim, and she lied to the police multiple
times. (Appx. C, Pg. 680, 1163*1164).
Melissa Cooper also received leniency in exchange for
testifying at Petitioner’s trial. (Appx. C, Pg. 741-744). The
victim was in the custody of co-defendant Melissa Cooper
when she disappeared, and Melissa Cooper’s inconsistent and
evolving statements to law enforcement show a consciousness
of guilt. (Appx. C, Pg. 680). See Burkell v. State, 992 So.2d
848, 852 (Fla. 2008). Citing Walker v. State, 495 So.2d 1240
1241 (Fla. 5th DCA 1986) (holding that evidence that
defendant lied to police to defeat or avoid prosecution was
admissible as showing consciousness of guilt).
Whereas, Petitioner never wavered in his statements
to law enforcement or trial testimony that he did not commit
the crime charged, and that he was not even home when the
crime occurred. Furthermore, Petitioner’s alleged inculpatory
statements to any of the witnesses cannot be considered a
confession, as they failed to provide evidentiary support to
establish that the victim’s death was caused by Petitioner’s
criminal actions.
The evidence presented failed to exclude Petitioner’s
hypothesis that he was not at home when the child
disappeared, and that the child was in the sole custody of co­
defendant, Melissa Cooper, at the time the child went
missing. (Appx. C, Pg. 1470*1474).
In Lindsey v. State, 14 So.3d 211 (Fla. 2009), the Court
concluded that the defendant’s admission of killing a person
during a robbery one month after the murder occurred,
combined with the other evidence of possession of the stolen
jewelry and the defendant’s statements to another inmate
that he had to kill someone once, was insufficient to sustain a
conviction for murder.
The court noted that even a “deep suspicion the
appellant committed the crime charged is not sufficient to
sustain conviction.” Id. at 216, quoting Williams v. State 143
So.2d 484, 488 (Fla. 1962); See also, Ballard v. State 923
So.2d 475, 482 (Fla. 2006) (“suspicions alone cannot satisfy
the State’s burden of proving guilt beyond a reasonable
doubt...”).
11

In this case, even if the State had established the
corpus delicti of murder because Pilar’s disappearance is
“strong circumstantial evidence of her death” by the criminal
agency of another, the State’s evidence was insufficient to
establish that the child’s sudden disappearance and apparent
death was not due to the specific criminal agency of
Petitioner. See Ramsammy v. State, 43 So.3d 100 (Fla. 2010)
(the defendant’s description of grabbing victim by neck,
combined with other circumstantial evidence of her death'
was insufficient to support murder conviction, where
defendant s statement, while potentially an admission of
domestic battery, could not be classified as confession or give
evidentiary support to establish victim’s death was caused by
defendant’s criminal actions, and did not evince
consciousness of guilt for second degree murder.)
Here, nothing in the evidence overcame the
reasonable hypothesis that Petitioner was not the person
that caused the child s death as the child was in the care of
her babysitter, Melissa Cooper, who admittedly lied to law
enforcement several times. (Appx. C, Pg. 680).
Marco Rodriguez originally gave a statement that
Melissa stated“What’s up if I kidnapped your
daughter.” “I kidnapped Pilar, that’s what she told me,”
(Appx. C, Pg. 1163-1164).
Additionally, there was no physical evidence presented
linking Petitioner to the charge of second-degree murder.
Here, as in Ramsammy, Supra, no body was found, nor
evidence of blood, DNA, or fingerprints linking bim to the
victim’s murder or pointing to any murder at all.
Petitioner notes the distinction between Ramsammy
and the instant case, in that here, a third party — the codefendant — accused Petitioner of committing the murder and
testified that she was present when it occurred. However,
when Melissa Cooper initially made her inconsistent
statements to law enforcement accusing Petitioner in 1999
he was never arrested. (Appx. B, Pg. 20-24).
In fact, it was not until ten years later, in 2009, that
Melissa was re-interviewed and suddenly came up with

12

additional incriminating statements
(Appx. B, Pg. 20-24).

against Petitioner

The State failed to disprove Petitioner’s reasonable
hypothesis of innocence, that he was not at home when the
crime occurred and that the child had been in the sole
custody of Melissa Cooper the last time she was seen alive.
Therefore, this case should be reversed as the State failed to
present evidence, which was inconsistent with Petitioner’s
theory of defense.
About a week after Petitioner was found guilty by the
Jury, Counsel filed a Written JOA Motion (Appx. B, Pg. 490492). The Court denied the JOA Motion after a hearing
conducted before sentencing. (Appx. B, Pg. 500; Appx. C, Pg.

At the JOA Hearing, Counsel argued that the State
committed a Due Process violation stemming from a timePgTsO? 1813)the Information a§ainst Petitioner. (Appx. C,

In the case at hand, Marco Rodriguez reported his
daughter Pilar Rodriguez was missing on Feb 23 1999
(Appx. B, Pg. 20-24).
Originally, Melissa Cooper told detectives in Wisconsin
that she and Petitioner placed Pilar in a garbage bag, after
Petitioner hit Pilar in the head with a closed fist. Melissa
made these statements that implicated Petitioner in 1999
(Appx. B, Pg. 21).
The State waited until Aug. 16, 2013 to file an
Information against Petitioner. (Appx. B, Pg. 37-38).
Petitioner contends that the 15 years and 6 months
_preaccusation-----delay”
caused
“actual.”
“personal”
‘Substantial”, and “presumptive” prejudice to Petitioner. See
Randolph v. State, 418 So.2d 1164, 1175 Fn. 1 (1982).
Numerous defense witnesses have died and numerous
defense witnesses could “NOT” be located, in order to be
interviewed. Petitioner’s grandmother could “NOT” be
interviewed because at the time of filing the information, she
13

suffered from Alzheimer’s disease. Thereby, prejudicing the
Petitioner and denying Petitioner his Federal Right to a Fair
Jury Trial, and his Common Law Right to present a defense.
The Bight to Present a Defensp is embedded in the Maena
Carta (1215 A.D.) These rights that have been violated by the
State Courts affected the judgement at trial.
In addition, to the 15 yrs. and 6 months preaccusation
delay, the State didn’t proceed to trial until Oct. 10, 2017.
(Appx. C, Pg. 335), in which was 4 years and 2% months
delay. This means at the time of trial, the case was 19 years
and 8% months stale.
During the JOA Hearing, the State argued the State
did “NOT” intentionally delay the filing of the Information
because between Feb. 1999 until 2010, the State did “NOT”
have sufficient evidence to prosecute. (Appx. C, Pg. 1816).
Petitioner contends that based upon Melissa’s
interview in Wisconsin in 1999 (Appx. B, Pg. 21), the State
did have sufficient evidence to prosecute Petitioner in 1999,
but failed to do so, in order to gain a tactical advantage’
Townley v. US., 665 F.2d 579 (1982), U.S. v. Lovasco, 431
US 783 (1977).
The tactical advantage that the State gained by the 15
yrs. and 6 months delay was a circumstantial evidence
witness Jesse Clapham.
Jesse Clapham testified that late at night in 1999 or
2000, he saw Petitioner, his uncle Bert Clapham, and his
father, Marlon Clapham standing around the trunk of a car
and he saw a little purple foot sticking out of a pink blanket
(Appx. C, Pg. 1262-1264).
u

Petitioner contends that the listed above evidence is
FALSE and insufficient. Petitioner is requesting that the
U.S. Supreme Court of America to take Judicial Notice (Fed.
R. Evid. 201) of Marlon Clapham’s Lee Countv Florida ("W
No. 722122 and/or No. 361991CF0Q22890n0Ar!R (Addx D
Pg. 1-3).
------------------ ’
Petitioner contends that because of Marlon Clapham’s
charges of Robbery without Firearm, (Appx. D, Pg. 1-3), he
was located in a State and/or Federal Prison. Therefore, it
14

would be “IMPOSSIBLE” for Marlon Clapham to be standing
around a car with Petitioner and Albert Clapham in 1999 or
2000, because Marlon Clapham was in prison; thereby
making Jesse’s testimony to be “FALSE”. Also creating a
tactical advantage over Petitioner, because at the time of
trial, Marlon and Albert Clapham were dead, and could
NOT be interviewed or examined concerning the exactness
of Jesse’s claims.
Petitioner contends that in America, a criminal
conviction cannot rest on false testimony. See U.S. v. Agurs
427 US 97, 103-104 (1976).
Petitioner is requesting that the U.S. Sup. Court to
grant review of his case, because the 12th Circuit Charlotte
County Florida Court decided several important questions of
Federal Law in a way that conflicts (Sup. Ct. R. 10) with the
decisions of the Florida Supreme Court, namely: Williams v.
State, 143 So.2d 484, 487 (Fla. 1962) holding: “A re­
examination of the record discloses that the only witness on
this subject, George Gray, testified that the man he saw
fleeing the H & K Market on the night of Kaplan’s death was
“about six feet or a little higher”; “he looked like a colored
man,” but Gray did not know whether he was light or black.”
In Petitioners case, Jesse testified he “saw a little
purple foot,” (Appx. C, Pg. 1262-1264), meaning that he
“NEVER” eye-witnessed the dead body of Pilar Rodriguez,
but it was a foot of someone unidentified.
Petitioner contends that Jesse did “NOT” identify who
the little purple foot belonged to, i.e., Pilar Rodriguez,
meaning that the State did “NOT” prove Corpus Delicti;
meaning Petitioner s case is in conflict with Ramsammy v
State, 43 So.3d 100, 104-105 (Fla. 2010) holding that
Suspicions cannot be the basis of a criminal conviction.”
At the JOA Hearing, State argued to the Court:
“Without the testimony of Mr. Clapham (Jesse) who came
forward in 2009, and then the subsequent additional
interviews of Ms. Harden-Jones, the babysitter, there was
not sufficient evidence to prosecute this case until 2010 ”
(Appx. C, Pg. 1816; Appx. B, Pg. 22).

15

Petitioner
contends
that
the
additional
interviews/evidence of Ms. Harden-Jones (Melissa) is also
insufficient and “FALSE”, mainly because: At trial, Melissa
testified that Petitioner beat, slapped and choked her during
the time frame she lived in the apartments. (Addx C Pe
673).
Afterwards, she flew to Wisconsin to live with her
sister. (Appx. B, Pg. 655-656).
During the visit to Trail Apartments, Charlotte
County Sheriffs took photos of Melissa in 1999 which were
introduced at trial as State Exhibits 9.-3 (Appx. B, Pg. 372374). Joseph Keith (Melissa’s brother in law testified State
Ex. #3 was a depiction of Melissa in 1999 (Appx C, Pg. 584586).
A review of those photos of Melissa in 1999 reveals
that her face and neck does “NOT” display signs of abuse,
such as black eyes, busted lips, or choke marks on her neck
(Appx. B, Pg. 372*374) meaning that Petitioner did “NOT”
abuse her, (Also Appx. C, Pg. 1138) (Marco Rodriguez
testimony).
Therefore, this additional interview (Appx. B, Pg. 22)
that was presented as Williams Evidence by Fla. State Law
F.S. 90.404 and Fed. R. Evid. 404 is insufficient as a matter
of Federal Law, because it is “False”. Id. US v. Agurs 427 US
at 103-104.
’
Petitioner contends that the trial Court’s decision to
deny the JOA Hearing (Appx B, Pg. 500) is in conflict with
Scott v. State, 581 So.2d 887, 891 (1991), mainly because of
the 15 yrs. and 6 months pre-accusation delay combined
witht the false circumstantial evidence of Melissa and Jesse
listed above, resulting in conflict with the U.S. Sup. Court
decision. See: jn Be Winship, 397 US 358, 364 (1970)
(“holding that the government must prove “every fact
necessary to constitute the crime beyond a reasonable
doubt”).
The Winship “beyond-a-reasonable-doubt” standard
applies in both State and Federal proceedings. See Sullivan
v. La., 508 US 275, 278 (1933); Winship at 363: “It
16

encourages community confidence in criminal law by giving
concrete substance” to the presumption of innocence. Id In
his concurring opinion, Justice Harlan noted that the
standard is founded on a fundamental value determination of
our society that it is far worse to convict an innocent man
than to let a guilty man go free. Id. at 372 (Harlan J.
concurring).
Petitioner contends that the State did “NOT” prove its
case beyond a reasonable doubt, See Fla. Jurv Insts 7 4
element#!: “Victim is dead”.
~
Wherefore, the U.S. Supreme Court must issue a Writ
'Vr?£rari to the Charlotte County Court and/or the 2nd
DCA of Florida, for upholding the lower Court’s decision, that
*LAnT7iolatlon
t^ie U-S. Constitutional Amendments V.
XIV, Due Process

CONCLUSION
Wherefore, Petitioner is requesting the U.S. Supreme
Court to Order the State of Florida and/or the U.S. Solicitor
General to file a Brief in Opposition as to why the U S
Supreme Court should not grant this Writ of Certiorari, Sup.
Ct. R. 15.1.
9
Petitioner is requesting that the U.S. Supreme Court
to appoint Petitioner qualified counsel to handle any and all
matters, Sup. Ct. R, 9, Tit. 18 USCS 300fiA(d)f7)
Petitioner is requesting to have (30) days to file a
Keply to the State’s Brief in Opposition, Sup. Ct. R. 15 F> and
15.6.
The petition for a writ of certiorari should be granted.
Respectfully submitted,

jjJZL as/,*.
Date:

7'2lo -zlo
17

IN THE SUPREME COURT OF THE UNITED STATES
OF AMERICA
U.S. Sup. Ct.
Case No.: Not Assigned

Keith Allen Wilson
PETITIONER
vs.
State of Florida
RESPONDENT(S)

PETITION FOR A WRIT OF CERTIORART WTTTf
INCORPORATED MEMORANDUM OF LAW
PRELIMINARY STATEMENTS
Keith Allen Wilson will be known as “Petitioner”
George Richards will be known as “Court.” Assistant State’s
Attorney Daniel P. Feinberg will be known as “State.” Kevin
C. Shirley will be known as trial “Counsel.” Susan M.
Shanahan will be known as Appellate Counsel.” Attorney
General Ashley Moody and Asst. Attorney General of Florida
Michael Schaub will be known as the “State.” The Second
District Court of Appeals of Florida will be known as “2nd
DCA. The victim in this case “Pilar Rodriguez”, a missing
person cold case file from Feb. 1999. Petitioner’s Appendix
will be known as Appx ___, Pg. _. in which are portions of
the Records and Files in this Case. Petitioner will be utilizing
the original Record on Appeal and Trial Transcripts Page
Numbers in the Appendix. The Trial Transcripts Page
Numbers that Petitioner will be utilizing are located on the
bottom of the page.

Keith Allen Wilson, DC #Y63626, Apalachee Correctional
Institution, 35 Apalachee Dr., Sneads, Florida 32460

in

